<html>
<title> - U.S. NONPROLIFERATION POLICY AND THE FISCAL YEAR BUDGET</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
        U.S. NONPROLIFERATION POLICY AND THE FISCAL YEAR BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON ASIA, THE PACIFIC AND NONPROLIFERATION

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           September 26, 2019

                               __________

                           Serial No. 116-69

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                       
                       
                              ______
                          
 
                U.S. GOVERNMENT PUBLISHING OFFICE 
 37-849 PDF              WASHINGTON : 2020                       
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

                                     

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
                                 ------                                

         Subcommittee on Asia, the Pacific and Nonproliferation

                  BRAD SHERMAN, California, Chairman,

DINA TITUS, Nevada                   TED YOHO, Florida, Ranking Member
CHRISSY HOULAHAN, Pennsylvania       SCOTT PERRY, Pennsylvania
GERALD CONNOLLY, Virginia            ANN WAGNER, Missouri
AMI BERA, California                 BRIAN MAST, Florida
ANDY LEVIN. Michigan                 JOHN CURTIS, Utah
ABIGAIL SPANBERGER, Virginia


                     Don MacDonald, Staff Director
                     
                     
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ford, Christopher, Assistant Secretary of State for International 
  Security and Nonproliferation, U.S. Department of State........     7

                                APPENDIX

Hearing Notice...................................................    32
Hearing Minutes..................................................    33
Hearing Attendance...............................................    34

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Reepresentative Sherman........................................    35


        U.S. NONPROLIFERATION POLICY AND THE FISCAL YEAR BUDGET

                      Thursday, September 26, 2019

                        House of Representatives

                 Subcommittee on Asia, the Pacific and

                            Nonproliferation

                      Committee on Foreign Affairs

                                     Washington, DC

    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2172 Rayburn House Office Building, Hon. Brad Sherman 
(chairman of the subcommittee) presiding.
    Mr. Sherman. The subcommittee will come to order. Without 
objection, all members will have 5 days to submit statements, 
questions, and extraneous materials for the record subject to 
the length, limitation, and the rules.
    It is a pleasure to welcome Assistant Secretary Christopher 
Ford to our subcommittee today with Under Secretary of State 
for Arms Control and International Security Affairs Andrea 
Thompson recently stepping down, Assistant Secretary Ford is 
the most senior confirmed official in the nonproliferation 
area.
    As we look forward out across the nonproliferation 
landscape, there is some reason for optimism or at least a 
chance to reflect that things are not as bad as they might have 
been. Next year marks the 50th anniversary of the Nuclear Non-
Proliferation Treaty, the NPT, going into effect. In 1963, John 
F. Kennedy admitted to being haunted by the feeling that there 
would be 20 nuclear armed countries by 1975. One could only 
comment that if there had been 20 nuclear armed countries by 
1975, there would be double or triple that number today and we 
as a species would have been through several nuclear wars. In a 
way, the NPT can be viewed as the most important accomplishment 
since World War II.
    It is now, of course, 2019 and there are nine countries 
with nuclear weapons. In the post cold war era most countries 
have--more countries have gotten rid of nuclear weapons and 
have acquired them that is chiefly due to the break up of the 
Soviet Union, but also includes the decision by South Africa to 
give up nuclear weapons. So things are much better than they 
appeared to be or they appeared they would be in 1963. But past 
successes do not guarantee future results and just because we 
have not had nuclear weapons used in anger since 1945 does not 
mean that that would not happen in the future.
    There are number of pressing nonproliferation challenges 
today. North Korea is the latest country to acquire nuclear 
weapons, first testing a bomb in 2006. In recent years, North 
Korea has accelerated its nuclear weapons and missile programs 
including testing within the intercontinental range of 
ballistic missiles, ICBMs, in 2017. Donald Trump and Kim Jong-
un have been through a variety of different emotional states in 
their relationship, but whether it is a bromance or little 
rocket man, the centrifuges in Yeonpyeong continue to turn and 
North Korea continues to get each day more fissile material. 
Perhaps another--well, we will ask our witness, six, eight 
bombs worth a year.
    Of course, we are aware of the Singapore Summit in June 
2018 and the following one in Hanoi. There has not been 
concrete results and although North Korea has vaguely promised 
to work toward denuclearization, it is not clear what Kim Jong-
un's definition of that word is or what his timeframe is. Keep 
in mind that the entire world is committed to the end of all 
nuclear weapons and perhaps Kim Jong-un will give up his 
nuclear weapons just as soon as the United States and Russia do 
so.
    Iran's nuclear program is a major concern for the United 
States. The issue is not about the JCPOA, it is can we develop 
a better deal since we have pulled out of this one. A better 
deal has to be evaluated, not just in the sense of does it get 
it through 4 years or 8 years with Iran having a nuclear 
weapon, but can we achieve that as far as the eye can see, 
hopefully, permanently. The chief advantage we got by pulling 
out of the JCPOA is that it allowed us to impose sanctions on 
Iran, but sitting just where Assistant Secretary Ford is 
sitting, John Kerry assured this committee, the full committee, 
that if we went into the JCPOA and to his way of thinking 
stayed in it, we could still sanction Iran proportional to 
their non-nuclear wrongdoing. Since their non-nuclear 
wrongdoing is enormous, under John Kerry's view, we could have 
kept them in the JCPOA and imposed as many sanctions as the 
members of this committee could have come up with.
    So we look forward to hearing what we can do to work toward 
a permanently non-nuclear Iran. Nothing drives this point home 
more than the recent decision to designate the Iran Central 
Bank because it supports terrorism, not for nonproliferation 
reasons, proof that we could have stayed in the JCPOA with all 
its imperfections and still impose the same sanctions.
    I have taken considerably longer to deliver this opening 
statement than I anticipated, and so I look forward to 
discussing, of course, Saudi Arabia's nuclear program which 
gets far less attention than it should, but let me say a nation 
that cannot be trusted with a bone saw should not be trusted 
with nuclear weapons.
    And we will look at the fact that Japan is seeking to move 
down the reprocessing road in a way that poses significant 
risks to the nonproliferation regime. With that, I will turn it 
over to our ranking member for his opening remarks.
    Mr. Yoho. Thank you, Mr. Chairman. Thank you Assistant 
Secretary Ford for being here and I, too, remember John Kerry 
sitting there and saying that no deal is better than a bad deal 
and that was a bad deal. Thanks for holding this hearing.
    In addition to focusing on affairs in the Asia-Pacific 
theater, this subcommittee has the task of oversight for 
nonproliferation. And I commend the chairman for bringing this 
up because this is something we really need to discuss, to do 
an assessment and see what is going on in the world that we 
know about that we can about in a hearing like this. I would 
like again welcome you for being here.
    Since the cold war, the United States has stood as a leader 
in deterring and responding to nuclear threats around the world 
through cooperation with four other recognized nuclear powers, 
Russia, the U.K., France, and China. Along with non-nuclear 
weapon States, we have been able to work toward global nuclear 
disarmament and prevent bad actors from getting their hands on 
these deadly weapons.
    When I see our four other recognized weapon States, Russia 
and China, it worries me about the reporting and truthfulness. 
The United States and our partners in nonproliferation have 
come a long way since the uncertain days of the cold war. 
However, the world still faces threats from several bad actors. 
As we know, the clandestine operations of Iran, what is going 
on in North Korea. Who knows what is going on in Syria. Who 
knows what is going on in Cuba. And I think this is so 
important that we kind of focus on what is going on.
    An example of recent progress in nonproliferation is North 
Korea. The Trump Administration has made significant progress 
with leader Kim Jong-un in efforts to denuclearize the Korean 
Peninsula. And this is something that has been criticized for 
him stepping up, having relationships with a person like Kim 
Jong-un. But what we know is you cannot move forward if you do 
not have relationships, especially in that region of the world. 
And we have done the diplomatic trial for 25 years and it did 
not work under President Bush, President--or Clinton, Bush, and 
President Obama. And so I welcome a new strategy.
    While there has not been a formal commitment from North 
Korea, the U.S. has been able to engage with the historically 
closed-off regime through unprecedented high-level talks. This 
effort will take time, but it is essential for continued 
security and prosperity of the Indo-Pacific.
    I would also like the commend President Trump for his 
decision to no longer participate in the JCPOA. Time and again, 
Iran proved they had no intention to fully upholding their end 
of the deal. And we saw for 30 years it was a cat and mouse 
game and every time they got caught, they denied it until we 
showed otherwise. If we do not continually hold our adversaries 
like North Korea and Iran accountable for their blatant 
disregard for the international rules and norms, these bad 
actors will continue to advance their nuclear capabilities 
which could eventually bring us to a point of no return. And I 
think that is something we are all trying to prevent.
    With that, I am just going to end my statement and look 
forward to hearing from you and I yield back.
    Mr. Sherman. Thank you. Does any other member seek time to 
make an opening statement? Seeing none, we will hear from our 
witness.

STATEMENT OF CHRISTOPHER FORD, ASSISTANT SECRETARY OF STATE FOR 
INTERNATIONAL SECURITY AND NONPROLIFERATION, U.S. DEPARTMENT OF 
                             STATE

    Mr. Ford. Good afternoon and thank you, Chairman Sherman, 
Ranking Minority Member Yoho, and Representatives. Thank you 
for the chance to appear before you today to talk a little bit 
about our vision and our priorities at the Bureau of 
International Security and Nonproliferation.
    In the interest of being as helpful as I can in answering 
your questions, I will truncate rather dramatically my long 
opening statement, but I would respectfully request that the 
full text of the prepared remarks be entered.
    Mr. Sherman. Without objection, so ordered.
    Mr. Ford. Thank you, sir. For long time observers of U.S. 
nonproliferation policy, Mr. Chairman, much of what we are 
doing today should not be too surprising. We are very fortunate 
that nonproliferation has tended to enjoy strong bipartisan 
support in Washington and here in Congress as many of our key 
priorities and our key objectives have remained fundamentally 
unchanged for many years.
    But there is also much in what we are doing in today's ISN 
that is, I would submit, new and innovative, so I would like to 
talk a little bit about both.
    In the past, ISN has generally conceived its mission as 
being principally about preventing the flow of sensitive 
technology and materials to rogue States or to terrorists and 
about supporting nonproliferation-related multilateral regimes. 
All of this, Mr. Chairman, we still do and I daresay we do it 
pretty well. I have many capable predecessors, as well as a 
longstanding tradition of strong support here on Capitol Hill 
to thank for having such a capable team at ISN, with such a 
strong record of accomplishment for us to build upon. So thank 
you for all that, Mr. Chairman.
    And let me offer here, if I might, while we are on whatever 
we are on, the opportunity to offer our public thanks to my 
fantastic folks back at ISN who may happen to be listening to 
this. So thanks for that.
    We do all this work very hard to build, maintain, preserve, 
and to strengthen various treaties, multilateral regimes, and 
international institutions, upon which the global 
nonproliferation regimes depends. Among the things that we do, 
we negotiate civil-nuclear cooperation agreements, as well as 
consequence management agreements and plans with foreign 
governments and U.S. embassies around the world to forestall 
against and improve preparedness for CBRN incidents.
    We lead the U.S. Government's work on nuclear safeguards, 
safety, security, and peaceful uses of nuclear technology vis-
a-vis the IAEA. And we manage capacity-building programming 
around the world that helps other countries come up to 
nonproliferation, safety, security, and export control best 
practices.
    We screen both export licenses and visa applications for 
proliferation dangers. We conduct proliferation impact 
assessments of proposed agreements or transactions, and we use 
State Department sanctions authorities to penalize those who 
engage in proliferation and to help deter future mischief.
    All this work, Mr. Chairman, is devoted to making sure that 
it is as difficult, as costly, as expensive, and as painful as 
possible for rogue regimes and terrorists to acquire weapons of 
mass destruction, delivery systems, or advanced conventional 
weapons. This is our ``traditional nonproliferation'' mission, 
and it is exceedingly important work. But I would like to 
emphasize, sir, that this is not all that we now do.
    For one thing, we are also working very hard in new ways to 
ensure that all of this is done as efficiently and effectively 
as possible. As one example, we are undertaking a broad reform 
of our programming work to ensure that ISN is as responsible 
and effective as possible as a steward of the funds that 
Congress and the U.S. taxpayer have entrusted us to manage.
    We are, for instance, building new evaluative mechanisms 
into our programming to ensure that we target spending as 
directly as possible against concrete security threats and the 
highest priority challenges facing us. We are building better 
ways to reevaluate programming decisions on an ongoing basis so 
as to maximize their responsiveness to changing circumstances. 
And we are working to ensure that we ``graduate'' recipients of 
our assistance as their capacities improve so at the end of the 
day we can always be devoting our resources to the most 
pressing security needs. To this end, we have also been 
migrating our programming funds from more rigid and country-
specific accounts into more flexible regional or global ones 
that will permit us to more easily maintain appropriately 
threat-prioritized allocations on an ongoing basis as the 
security environment changes.
    We are very grateful for the support that we have received 
from the State Department and from Congress in these reforms of 
our programming work. We are also grateful, of course, for 
continued funding for our nonproliferation programming which 
helps us address various threats on our mission to prevent the 
spread of WMD delivery systems and advanced conventional 
weapons capabilities, as well as, where possible, to roll back 
such threat programs where they have already taken root.
    Internally, we are also working to improve coordination 
between our ``policy'' office and our ``programming'' offices 
in order to maximize the effectiveness of the ISN team as a 
collaborative team all together. In line with these reforms in 
the past two Presidents' budgets, the Department has requested 
that Congress grant full or what is called full notwithstanding 
authority for three ISN programs to help us identify and help 
prevent the proliferation activities anywhere and any time that 
they may occur and I hope that you all will look favorably upon 
this request.
    But, and here is my second point, sir, these days we do 
even more than, Mr. Chairman. ISN now also uses our 
nonproliferation-derived tools and expertise to support U.S. 
national security and geopolitical strategy more broadly, 
particularly in support of our Nation's competitive strategy, 
vis-a-vis State's challenges. We now work with new focus and 
vigor, for instance, to impede technology and resource flows to 
China and to Russia as part of a broad U.S. competitive 
strategy.
    We implement sanctions against those who engage in 
significant transactions with the Russian defense or 
intelligence sectors, as well as leveraging the threat of such 
sanctions to prevent such transactions, cutting off revenue 
flows to the Kremlin and countering the malign and manipulative 
strategic relationships that Moscow seeks to build with its 
foreign armed clients.
    We also work to counter the momentum of China's predatory, 
State-funded nuclear, civil nuclear industry. And we negotiate 
Nuclear Cooperation Memoranda of Understanding which is a new 
mechanism that we have built at ISN to help U.S. stakeholders 
develop and strengthen their own relationships with actual or 
potential nuclear technology partners overseas.
    And not least, we also help implement pressure campaigns 
against both Iran and the DPRK to change their own strategic 
calculus when it comes to proliferation even while we are 
planning and preparing to be able to implement negotiated 
elimination of threat programs through the very talks and 
negotiations that this pressure is designed to incentivize. All 
of our ISN offices are exploring how they can contribute better 
to these goals and missions as well and we are reorienting 
parts of the Bureau to facilitate this.
    We have not, Mr. Chairman, I would emphasize, abandoned our 
traditional priorities and indeed they in many ways can provide 
a foundation for our new and emerging roles as well. We work at 
these long-standing missions faithfully, diligently, and we 
work at them effectively, but we are also mindful that State-
on-State challenges never went away during the last quarter 
century as much as one might have wished that they had. And it 
is now for that reason part of mission today also to help 
respond to those challenges.
    We are very grateful, Mr. Chairman, the support that we 
have received from Congress over the years and today and we 
look forward to continuing to work with you and your colleagues 
on these great collective challenges in the months and the 
years ahead. And I very much look forward to your questions.
    [The prepared statement of Mr. Ford follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

     
    Mr. Sherman. Thank you. I let you go a little over because 
you are doing the most important thing in the world which is 
preventing the spread of nuclear weapons.
    I am going to focus on the Saudi program. I also sit on the 
Science Committee and in that committee Rick Perry assured me 
that the Administration will not sign a 123 agreement with 
Saudi Arabia unless Saudi Arabia signs the additional protocol. 
He repeated that in a letter to the Saudi Energy Minister. It 
was sent on September 4th.
    Since I like getting these assurances, I would like to get 
one also from you. Will we sign a 123 agreement with Saudi 
Arabia if Saudi Arabia has not agreed to or signed the 
additional protocol?
    Mr. Ford. Mr. Chairman, my guidance at the State Department 
is to try to avoid where I can comments on on-going 
negotiations. However, the----
    Mr. Sherman. What is the Congress for if we are not going 
to ask you questions about what you are working on?
    Mr. Ford. I was actually about to say, sir, that the 
Secretary of Energy has been very clear and I hope that will be 
in some way reassuring about our seriousness, ensuring that we 
are always asking for the strongest possible nonproliferation 
assurance.
    Mr. Sherman. Asking or insisting upon--let me put it this 
way. I quoted Secretary Perry. Do you know anyone at the State 
Department that disagrees with him on this issue?
    Mr. Ford. There has been no daylight between the Secretary 
of Energy and the Department of State on these issues, sir.
    Mr. Sherman. Now moving on, when was the last Iran, North 
Korea, Syria Nonproliferation Act report provided to Congress 
and what period of time did that report cover?
    Mr. Ford. I believe, sir, that the last report was 
submitted in May and it was the Calendar 16 report. It 
contained, I believe it resulted in additional sanctions, 
designations against 22 persons or entities.
    Mr. Sherman. But it covered the period through the end of 
2016?
    Mr. Ford. Yes, sir. It has been a bit of travail for us to 
dig out from the hole that we inherited. When I arrived at the 
beginning of this administration, we were, I believe, three 
reports behind. We are now on the edge of being only one report 
behind. We are finishing up the one the Calendar 17 report and 
it ought to be submitted by the end of the year. That I fully 
admit is not out of the hole yet, but it does represent 
progress at a time in which staffing and resource challenges 
amidst a swirling world of day to day proliferation related 
concerns have made it challenging to do this, but we have been 
pretty successful in making progress and I can assure you, sir, 
that we will continue to do so.
    Mr. Sherman. Can you describe what the Administration is 
doing to make it more difficult for Iran to use illicit 
procurement of materials that would help them develop a nuclear 
weapon?
    Mr. Ford. A range of things. It is quite a full-spectrum 
approach. We work very closely with our intelligence and law 
enforcement colleagues to make sure that we understand as much 
as possible about the proliferation network through which items 
and materials move. We work with intermediary points and 
transshippers to do what we can to ensure that they are as well 
informed as they can be and that they are able to get in the 
way of such shipments wherever possible. We work with countries 
that represent points of origin and demarche them frequently 
about problem shipments and transfers. Some, of course, are 
more cooperative than others, but it is an effort that we 
undertake daily through multiple offices in the Bureau and 
partnership capacity building efforts around the world, sir.
    Mr. Sherman. The Administration says South Korea and the 
firm KEPCO is bidding on a Saudi nuclear contract and that it 
uses U.S. technology and therefore cannot sell to Saudi Arabia 
nuclear equipment without a 123 agreement between the United 
States and Saudi Arabia in place. Others have said that KEPCO 
is not using U.S. technology. What is the position of your 
Department?
    Mr. Ford. It is our understanding, sir, that there is 
indeed U.S. technology in the reactor design that the South 
Koreans are offering through KEPCO to the Saudis. And as a 
result of that, it is our understanding and belief and I think 
we share this with the Department of Energy that a so-called 
Part 810 authorization would be necessary in order for South 
Korea lawfully to export that technology to the Kingdom of 
Saudi Arabia.
    Mr. Sherman. Let us see. So if KEPCO went ahead and bid 
without a Part 810 license, would that be a violation of U.S. 
law?
    Mr. Ford. I must confess not to be enough of a lawyer on 
these topics to know precisely what would happen, but I have to 
think that that would entail significant legal complications 
for the South Korean bid, sir.
    Mr. Sherman. And do you know whether the South Korean 
Government has agreed with us that it uses U.S. technology?
    Mr. Ford. I know that this point has been very clear to 
them, Mr. Chairman.
    Mr. Sherman. I would hope that you would also deal with the 
East Asia Bureau. We have bled lives and treasure to protect 
the people of South Korea by the tens of thousands of deaths, 
by the hundreds of thousands of injuries. And I hope that we 
could drive home the importance of South Korea not undermining 
American security in some other part of the world just so that 
one company can make a few dollars. So this should affect 
everything in our relationship with South Korea. And with that, 
I yield to the ranking member.
    Mr. Yoho. Thank you, Mr. Chairman. As we were talking 
earlier about the assessment of the state of the world with who 
has nuclear weapons, what are the counts, what are the best 
estimates we have, who are the good players, who are the ones 
that we cannot trust, and we have seen over and over again 
Iran, you know, the cat and mouse game we have had or North 
Korea, the clandestine, that we just do not understand really 
and have a good assessment. I know we have limited knowledge. 
And then you bring in other players that may be out there. And 
of course, China is out there which, you know, they do not have 
a strong commitment of holding up treaties and international 
norms.
    And so in your assessment where you said on 
nonproliferation, what do you see where we need to focus more 
on where we may have dropped the ball that we should do a 
better job? And I know you guys are doing a great job, but from 
Congress' authority to direct maybe a program or put emphasis 
somewhere else, I would like to hear from you on that.
    Mr. Ford. Well, sir, I would not describe these two points 
as being dramatic, unmet needs, but they are challenges on 
which we are working hard and on which progress has been 
modest, but there is progress. And the first being the general 
challenge of China which continues to be, in effect, the 
proliferator's preferred point of origin for multiple systems 
around the world. I am thinking in particular of supplies to 
the Iranian missile program which had been the subject of the 
enormous efforts on our part and sanctions and demarches 
against entities involved for 15 years or more. We are working 
to do what we can with that. It is not moving as fast as anyone 
would like and of course, the Iranians have been working very 
hard not to continue their supply network.
    Another challenge related to that, sir, is the degree to 
which the Iranians partly, I hope, as a result of our efforts 
and successes in getting countries to be better partners and 
build their export control capacity, controlling items in 
international transit. The Iranians are getting better at 
shifting items at lower and lower levels or perhaps not even on 
control lists and doing later assembly of various uncontrolled 
components back home. That makes it, in some respects, harder 
to do the kind of export control work that we do and it forces 
us to rely increasingly upon working with partners to use the 
so called catch-all controls in their export control licensing 
or in their transshipment management. That is not impossible, 
but it is a more difficult and it is more of a nontraditional 
challenge compared to simply comparing what you see on a bill 
of lading to a control list from say the Wassenaar Arrangement.
    Mr. Yoho. And that is what we worry about because with the 
transshipment and it goes through different channels through 
Hong Kong to a boat out in the South China Sea and goes from 
one boat to the other and it shows up. The components coming in 
that we know that maybe Iran was bringing in, do we have a 
sense of any of that coming in and was there looking at the 
Iranian situation, was there a sense that they might have been 
building centrifuges that they claim not to? Is that something 
you can talk about here?
    Mr. Ford. In terms of assessments of what the Iranians may 
or may not be doing right now beyond what one sees in, for 
example, the IAEA reporting, I would refer you to our 
intelligence colleagues who may be able to offer more insight 
into that.
    Mr. Yoho. Yes, and that is one of the problems I had with 
that, the JCPOA was supposed to be initially any time, 
anywhere, any place, and then we found out that was not really 
true.
    Moving forward to North Korea, have we gotten anywhere of 
what denuclearization means to both sides that we can agree on 
and then what level of inspections that we could all agree upon 
with the IAEA?
    Mr. Ford. Our interagency has been working very hard for 
quite some time to be ready in the event that North Korea, in 
fact, do what it has promised to do and what we expect and 
needed to do in these negotiations that we hope to have 
restarted soon. It is very difficult to speak in great detail 
about that here because, of course, precisely what it is that 
is agreed to is not yet known. Our planning efforts have been 
devoted to trying to ensure that we are as ready as possible 
for a variety of different source of answers.
    With respect to the IAEA, however, what we have made very 
clear both publicly and to the North Koreans themselves, is 
that we--it is very difficult to imagine any scenario in which 
the IAEA is not involved in some way. Now the particular 
modalities of that remain to be negotiated and frankly, 
Pyongyang does not have the happiest of relationships with the 
Agency over the years, but certainly especially with respect to 
long-term monitoring and frankly, providing the kind of 
international imprimatur on the fact that certain 
dismantlements have occurred and that certain safeguards are, 
in fact, being effectively applied, it is very difficult to 
imagine a substitute for the IAEA in that respect, especially 
at the time.
    Mr. Yoho. Right. All right, thank you. I am out of time and 
I yield back.
    Mr. Sherman. The gentleman from California.
    Mr. Bera. Thank you, Mr. Chairman. I also want to attach 
myself. I happen to be on the Committee on Science, Space, and 
Technology with the chairman, and again, just reiterating that 
committee with Secretary Perry, we were given strong 
reassurances that unless an acceptable 123 agreement with 
additional protocols was signed by the Saudis that we would not 
be proceeding and the recent events of the missile attack on 
the Saudi refinery gives us just one additional reason that we 
need to proceed pretty carefully.
    My background is as a physician. I spend a lot of time 
thinking about pandemic preparedness, et cetera. And again, I 
know ISN plays a role in global biosecurity efforts. You know, 
when I think about the Biological Weapons Convention and just 
look at the advances that are taking place in genetics, et 
cetera, how are we going to keep up with this? If I could get 
your perspective on continually modernizing the BWC.
    Mr. Ford. You are quite correct. That is a very great 
challenge. We have been working very hard to try to use the 
mechanisms that the BWC does provide to encourage countries to 
do more in terms of confidence-building measures with each 
other, for instance, in terms of mutual transparency and 
awareness. We think that there is more that can and should be 
done under the auspices of the Convention to build out 
approaches and preparedness for the kind of mutual assistance 
that the Convention envisions in the event that there happens 
to be a biological attack, for instance. These are things that 
we do work with our colleagues within the Convention on quite 
regularly.
    The intercessional process between review conferences has 
been a bit challenging because of foot dragging by countries 
such as Cuba and Iran, for example, and we have had trouble 
enticing some participants to, in fact, pay their dues which 
funds that intercessional process. So this is an on-going 
challenge in managing this. But at the same time as we are 
doing this, we are also working very hard through our 
programming spending, for example, and doing things like 
securing biological facilities and labs and improving awareness 
of security practices of bioscience that will hopefully through 
these bilateral engagements conduce to a better state of play 
irrespective of what is or is not agreed or worked out through 
the Convention itself.
    Mr. Bera. We often spend a lot of our time talking about 
nuclear nonproliferation, but from your perspective, Assistant 
Secretary, what are the things that we should be focused on in 
Congress that can certainly assist your diplomatic efforts. 
There is still a large number of countries that are members of 
the BWC, but certainly do not have the same protocols that we 
are urging. And what would you like to see us focused on in 
that particular area?
    Mr. Ford. Well, actually if I might put in something of a 
shameless plug for reforms that we are doing in our programming 
precisely in order to make them more threat responsive, I would 
point out that we are working quite hard, especially on the 
countering weapons of mass destruction terrorism front to make 
sure that we are as responsive as we can be as our collective 
understanding of the evolving threats out there change.
    At the moment, the unfortunately hot topic is more on the 
chemical and biological side and we are reprioritizing some of 
the work that we are doing to make sure that while we, of 
course, do not want to let drop the very important radiological 
and nuclear side of it, there is an unmet need in the CBW 
aspect of our programming that we are reprioritizing some 
funding toward. That is an important priority and it is part of 
the threat responsive recalibration effort that we are doing 
with our programming and we would certainly be delighted were 
Congress to assist and support these kinds of efforts. They are 
underway and we think they are very promising and I can also 
promise that we are, as I alluded to in my written remarks, we 
are building in efforts to ensure that at any given point we 
are reprioritizing and reprioritizing and reprioritizing, 
depending upon what we see in the shifting threat environment.
    At the moment in CBW, I cannot speak to what it might be in 
say 10 years' time, but we very much hope to continue to work 
with those who provide funding for these efforts to make sure 
that we can tell you at any given moment that the marginal 
dollar is always going toward the most important unmet need.
    Mr. Bera. In my capacity as chair of Oversight of Foreign 
Affairs, I would love to have my staff reach out to you or your 
staff or find some time for us to meet and get into some of the 
specifics where we think there might be some holes and where we 
could be of assistance.
    Mr. Ford. That would be a pleasure, sir.
    Mr. Bera. Great. Thank you. I will yield back.
    Mr. Sherman. I recognize the gentleman from Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman. Mr. Ford, it is a 
pleasure to have you here and we appreciate your presence.
    We announced that we would no longer participate in the 
JCPOA in May of last year and in September of this year, which 
is last month, no, it is this month. It is almost last month. 
It is this month, the IAEA reported that Iran started 
installing advanced centrifuges at its pilot uranium enrichment 
facility. And in July of this year, the reports found that both 
the quality of Iran's low enriched uranium stockpile, as well 
as the LEU's uranium 235 concentration exceeded the JCPOA's 
mandated limit.
    A couple questions here in regard to those two factoids. 
The July 2019 report, is that as of July or when did they 
figure out that Iran had exceeded both the quantity and the 
concentration and then reported? Was that the time that they 
found out or did they find out some time prior to that and then 
that is when we got the report?
    Mr. Ford. Well, Congressman, I do not have the report in 
front of me so I do not know specific date of information. Our 
work with them on things like JCPOA monitoring has been over 
time quite timely. So if there was any delay, my suspicion is 
it results simply from things like flying back to report and 
draft in Vienna. We are not in any way unhappy with the 
timeliness of the report.
    Mr. Perry. And I am not suggesting--what I am trying to 
figure out the time line of when they determined things as 
opposed to the time when it is actually reported. Is that in 
your experience days, months, weeks, or hours?
    Mr. Ford. Without having the data in front of me, take this 
with something of a big error bar, but my impression is much 
more like days.
    Mr. Perry. OK. So we left in May, right, we announced our 
withdrawal in May, but Iran still has the bilateral agreement 
with the other countries, even as we have exited, right? Is 
that not true?
    Mr. Ford. We are no longer a participant.
    Mr. Perry. Right.
    Mr. Ford. There are several other--all the other parties.
    Mr. Perry. All the other parties, right?
    Mr. Ford. Yes, sir.
    Mr. Perry. Now even though as far as I know, was the 
agreement ever signed by Iran, you know, like a signature is as 
good as the intention that backs it up. And I do not think that 
Iran ever had any intention, but that is my personal opinion, 
but did they ever sign it?
    Mr. Ford. I am not aware of any document with signatures on 
it if that is what you are describing.
    Mr. Perry. But there was a public agreement that they would 
comply and I do not know how long it takes to exceed both the 
quantity at whatever level they are at or the concentration. I 
do not know if it matters, that we pulled out in May and by 
July of the next year--and I do not know if we can determine 
whether they had already been enriching to that level prior to 
us departing because one of my frustrations here, quite 
honestly, is that even in this committee, there have been a lot 
of calls that why are we leaving the JCPOA? Why would we 
consider leaving it? Iran has been compliant and you cannot 
name one time where they have not been compliant. And I am 
wondering if we can figure that out.
    Even while these things are a violation, these things are a 
violation of the JCPOA as it stands and there are still, I do 
not want to call them signatories, even though I do not know 
that anybody signed, but countries that have agreed including 
Iran, yet these violations are never seen as violations and so 
that is another question. Why are they not seen as violations? 
And what does it take to actually violate the treaty and be 
called for it?
    Mr. Ford. I think as we have seen reporting from the IAEA, 
Iran is clearly doing things now that are not consistent with 
the JCPOA commitments. There would have been a point under the 
JCPOA when all of these things would have been perfectly fine 
by the terms of the agreement and that was actually one of the 
reasons why we did not like it. It was, in a sense, not even--
--
    Mr. Perry. My point is is when they violate it, no one ever 
says they had violated it, which is one of the frustrations, 
quite honestly, in Congress and I think to the American people, 
is that they know. Americans, if we have not figured it out in 
Washington, DC, Americans inherently know that Iran has no--
they have no plans or intentions whatsoever of complying with 
this stuff, and they know that they are going to violate it. We 
are going to complain a little bit, and they are just going to 
keep going.
    Let me ask you this because I am running out of time. The 
centrifuges, the heavy water, and the 235 concentrations, is 
any of that necessary for the production of commercial-grade 
power?
    Mr. Ford. If they had an enrichment architecture that was 
big enough to produce it in an efficient way enough for a power 
program, you could at least imagine trying to make the 
argument. But with the scale of activities they are doing right 
now, I see no commercial relevance to this at all. But what 
there is is a potential danger for this activity to shorten the 
so-called breakout time.
    Mr. Perry. But since there is no commercial relevance, what 
is the relevance?
    Mr. Ford. I hesitate with putting thoughts into their head 
and words into their mouth. My guess is it is partly 
negotiating leverage. They wish to be, in effect, paid off in 
order to stop these provocative activities. It is a bit of an 
extortion racket.
    Mr. Perry. My point is is that these things are not 
necessary for nuclear power production, what they are necessary 
is for a nuclear weapons program. And I yield the balance which 
I do not have any, but I will yield.
    Mr. Sherman. Thank you. Recognize the gentlelady for 
Pennsylvania.
    Ms. Houlahan. Thank you, sir, and thank you for coming 
today. I actually wanted to dig in a little bit on some of your 
testimony. You mentioned that you were coming back up to speed 
on three reports that were overdue and that you were just one 
report behind and that you were remarking that that was despite 
of being under staffed and under resourced. And I would like to 
know to what degree do you find yourself under staffed and 
under resourced and what is it that we can do to be helpful in 
that area?
    Mr. Ford. Well, in our budget request, for example, for 
example, we have a request for at least a little bit of 
additional help in terms of FTEs that is being driven not just 
by on-going workload, but by anticipated increase in certain 
types of caseload for the matters that we handle.
    In particular, the new legislation that is the FIRRMA 
legislation has been put in place to help reform the process by 
which foreign investments in the United States are screened for 
national security implications in order to, frankly, to close 
loopholes that it is a very good thing to close. That is all 
fantastic from our national security perspective and we are 
building out our, in the interagency, our ability to implement 
that, but it does take--t will result in a greater case load 
from our perspective at ISN, something in the order of 400 
percent or so.
    We are asking for an additional FTE this year and it is 
very clear that in future years we will need more FTEs and that 
is simply for this particular piece of the puzzle alone. At the 
moment, we have something like 174 people on board. Our 
authorized ceiling is more like 186. We are currently trying to 
hire against 20 FTE billets to try to bring our staffing up, 
but in the nature of bureaucracies that are occasionally 
afflicted by government shutdown, sometimes it is hard to make 
those processes work as quickly and efficiently as one would 
like. We are making progress.
    Ms. Houlahan. So what do you attribute to the fact that you 
have 12 to 20 billets that go unfilled with a government 
shutdown 9 months ago and the economy's low unemployment rate, 
what do you attribute the fact that you cannot attract the 
talent that you would like?
    Mr. Ford. Actually, I do not know that we cannot attract 
the talent. My suspicion is it is much more of a process, a 
question of bureaucratic procedures churning slowly. That does 
affect the competitiveness of a government job. If one is able 
to get a response from one's private sector potential employer 
in the space of 2 months, there is a bird in the hand versus a 
bird in the bush question for a bright, young person trying to 
come in to an important area like this if they have to wait 
many, many more months for government employment. But that is 
not an ISN-specific problem. That is something that we are 
trying to work on across the Department and probably the 
government as a whole.
    Ms. Houlahan. That does have to do with security clearance 
backlog at all? The rate of response being months instead of 
more urgently?
    Mr. Ford. I am not sure, ma'am, frankly. It probably is in 
some cases, but everyone's security background investigation is 
different and those are probably very different challenges one 
person from the next.
    Ms. Houlahan. Thank you. And with the last couple of 
minutes of my time, I wanted to get into biology a little bit 
more. Mr. Bera, Representative Bera, talked a little bit about 
biological weapons and that is a concern and interest of mine, 
too.
    I was wondering if you could talk about what we are doing 
to assess the information transparency of places like China, 
Iran, North Korea, and Russia, and their transparency on all 
issues biological.
    Mr. Ford. I wish that were easier to answer. Their 
transparency is certainly not what one would like it to be. The 
classic example, of course, is Russia, which for many years, we 
understand, of course, had a very forward leaning biological 
weapons program. There was a brief window after the end of the 
cold war when the Russian Government was willing to admit that 
such a thing had been in existence, but then they went back to 
denying it and they have not ever thereafter come clean about 
what it consisted of or about what has become of it, leading to 
all the obvious----
    Ms. Houlahan. And can we, the United States, do to bolster 
the transparency of a place like Russia?
    Mr. Ford. It is hard when they do not wish to be 
transparent and when their system is as authoritarian as it is. 
And the same thing could be said of probably other countries 
around the world. There is no easy recipe for this. I think 
there is probably more that we could do in terms of the classic 
kind of open-source analysis one does of what publications are 
coming out and what one can understand from different lines of 
efforts and research laboratories around the world.
    It is occasionally possible to learn interesting things 
from people who are working on potentially provocative dual use 
topics to suddenly in the middle of a promising career go 
silent. But that is the day-to-day work of intelligence 
analysis and open source analysis of various sorts. We 
certainly do that.
    In terms of getting more transparency, I think part of this 
is a diplomatic challenge that frankly those who are not 
transparent about such things in today's world when so many 
really horrifically scary things are possible with bioscience 
technology these days, far beyond what used to be so hectoring 
them and making this an important priority and always making 
sure that the rest of the world is asking them why are you not 
being as transparent as say the Europeans or the Americans.
    Ms. Houlahan. I have run out of time as well, but I look 
forward to following up with you, having a further maybe off-
the-record conversation. Thank you.
    Mr. Sherman. The gentlelady from Virginia is recognized.
    Ms. Spanberger. Thank you, Mr. Chair. Assistant Secretary 
Ford, thank you for being with us today. In January, DNI Coats 
and DIA Director Lieutenant General Ashley testified that Kim 
Jong-un is unlikely to eliminate North Korea's nuclear weapons 
program, assessing both Kim Jong-un's intent, as well as the 
country's current increasing military capabilities. This 
assessment is seemingly incompatible with the administration's 
intent to have the and I quote ``final and fully verified 
denuclearization of North Korea.''
    As a former intelligence officer, I am concerned about what 
appears to be a dramatic disconnect between our political and 
our intelligence leaders, in particular, the rejection of 
objective nonpartisan intelligence assessments. As the head of 
the International Security and Nonproliferation Bureau whose 
primary mission, as you described in your testimony, is to 
prevent the spread of weapons of mass destruction and to help 
roll back proliferation where it has already taken root.
    What is your assessment on the likelihood of the complete 
and verifiable denuclearization of North Korea?
    Mr. Ford. I would say that, well, there is no questioning 
of the IC's assessment. It is our hope, frankly, to persuade 
the North Korean regime to change its strategic catalyst. Does 
it wish to? I would be surprised if it did. But has it promised 
to? Actually, it fact it has and trying to get it to follow 
through in the commitments it has made in person to our 
President is the order of the day. No one I think would pretend 
that that is an easy, quick, or linear process, nor would 
anyone guarantee that it, in fact, will work.
    We do think it would be unconscionable not to try, given 
the stakes involved and we are working very hard to make sure 
that our diplomats are prepared in a way that allows them to be 
technically proficient and able to reach deals with the North 
Koreans, to come as close as humanly as can become to the goal 
of final and fully verified denuclearization. That is not a 
guarantee it will work, but it is an absolute commitment to 
give it a very, very serious try because of the stakes 
involved.
    Ms. Spanberger. And do you have an estimate of 
approximately how many nuclear weapons North Korea has 
destroyed since negotiations began?
    Mr. Ford. Has destroyed? I do not have an estimate of that, 
but I would encourage you to talk to the intel folks about 
that.
    Ms. Spanberger. OK, and to your knowledge has North Korea 
slowed the production of fissile material during these 
negotiations?
    Mr. Ford. North Korea has committed to a--in effect, a 
moratorium on nuclear testing specifically and on long range 
missile testing. There is no commitment that I am aware of that 
goes beyond that, but in terms of what they are thought to 
actually be doing or not be doing, that might be a better topic 
for a different room and perhaps an intelligence community with 
it.
    Ms. Spanberger. Wonderful. And in your perspective, from 
your perspective, what is the best outcome that we could 
potentially expect from these negotiations? And what do we need 
to get there?
    Mr. Ford. Well, I mean I suppose the best outcome is what 
we are asking for on its face. We have offered the North 
Koreans a very dramatic swap, if you will. They face a very 
deliberately created international campaign of extremely 
punishing sanctions and pressure. It is our understanding that 
Chairman Kim is committed to having some kind of a prosperous 
and bright future for his country. He values the kind of 
engagement with the world that could bring in the sorts of 
profits and engagement with the rest of the world there. And 
our hope is that we can offer him the opportunity to be 
relieved of those pressures if he, in fact, does nothing more 
complicated than live up to the promises that he has already 
made with respect to denuclearization and that he has made 
repeatedly, his predecessors made repeatedly in the past going 
back to the early 1990's. Clearly, that negotiating record 
suggests that this is not going to be a simple or easy 
trajectory, but it is also true that we have never had the kind 
of direct engagement with them that we now have and are hoping 
to restart at the working and negotiating level very shortly.
    Ms. Spanberger. And in that challenging trajectory noting 
the history between our two countries or at times lack thereof, 
what can we do to address the challenges that may exist when 
there have been times when the administration has not been 
prioritizing verified intelligence reports related to North 
Korea or frankly other areas of the world when it comes to 
nuclear proliferation issues?
    Mr. Ford. I am actually not quite sure to what you are 
referring, ma'am, but at least in my experience intelligence 
reporting related to the North Korean proliferation challenge 
has always been greeted with enormous attention and focus, in 
part, because it has such an obvious and direct bearing upon 
our ability to accomplish the mission that we have been 
assigned by our commander in chief to negotiate a way out of 
this morass.
    So as far as I can tell, they have always been paid 
enormous attention to.
    Ms. Spanberger. All right, well, I thank you for your time, 
sir. And I yield back.
    Mr. Sherman. The gentleman from Michigan, Mr. Levin.
    Mr. Levin. Thank you, Mr. Chairman. Dr. Ford, the New START 
Treaty restricts the number of American and Russian nuclear 
warheads----
    Mr. Sherman. If the gentleman will yield, I need to warn 
the witness, we are probably going to do a second round. Just 
do not expect this day to be over in 5 minutes.
    Mr. Levin. I thank you for your forbearance then. You know, 
the New START Treaty is set to expire in February 2021 unless 
we and Russia agree to extend it. Does the Administration have 
a position at this point as to whether the New START Treaty 
should be extended?
    Mr. Ford. To my knowledge, that decision has not been taken 
yet, but I have to give the caveat that that is not my lane in 
the road. It is Department of State. So I may not be the best 
person to answer that question.
    Mr. Levin. All right, thank you. We will followup with 
them. I think it is important that we try to continue.
    I think that President Trump's withdrawal from the 
Intermediate Range Nuclear Forces Treaty represented a huge 
mistake, both for America's security and global peace and I 
strongly urge the Administration to support extending the New 
START Treaty and get Russia moving in the right direction on 
arms control.
    I want to move on to Saudi Arabia. This month, Reuters 
reported that talks on a civilian nuclear deal between the U.S. 
and Saudi Arabia had hit a road block because Saudi Arabia does 
not want to rule out the option of enriching uranium, that is, 
as I see it, they do not want to close the door to a possible 
nuclear bomb.
    Is that a fair assessment in your view of the Saudis' 
position on this issue?
    Mr. Ford. I am not in a very good position to be able to 
talk about the contents of ongoing diplomatic negotiations. 
However, in certain press reports the Saudis have talked about 
their--here and then--about their hope to develop an enrichment 
capacity for purposes of producing fuel for nuclear reactors. 
That is all that I have heard them say publicly or, frankly, 
privately.
    Mr. Levin. Earlier this year, Secretary of State Mike 
Pompeo testified during a Senate hearing that the United States 
wants to deal with the Saudis ``which would not permit them to 
enrich.''
    Will the Administration insist that any civilian nuclear 
deal between the U.S. and Saudi Arabia blocks the Saudis' 
pathway to a bomb and prohibits enriching uranium or 
reprocessing plutonium?
    Mr. Ford. My boss, Under Secretary Thompson has made clear 
that we go into 123 Agreement negotiations always asking for 
the strongest possible nonproliferation assurances. It is our 
policy for many years to oppose the spread of enrichment and 
reprocessing technology. And we always try to achieve that in 
123 Agreements.
    Historically, the record makes clear that it is not always 
possible to get that out of agreement, but we always insist and 
frankly, even the bare minimum required by law is a far better 
set of proliferation assurances than any other supplier of 
nuclear technology. We always work hard to get the best 
possible deal that we can and usually we do pretty well. Their 
record is not 100 percent on the so-called gold standard, but 
that is----
    Mr. Levin. Thank you. Well, in my opinion, anything less 
than the gold standard will not do. The Saudis do not have a 
God given right to have nuclear power with U.S. cooperation and 
we better make sure that Saudi Arabia does not obtain nuclear 
weapons. That is far more important.
    Earlier this year, I introduced a resolution that would 
hold any civilian nuclear deal between the U.S. and Saudi 
Arabia to the highest nonproliferation standard you were 
mentioning and ensure that the deal does not set the stage for 
a Saudi nuclear weapon. It calls for any nuclear agreement to 
prohibit Saudi Arabia from enriching uranium or reprocessing 
plutonium and block the Saudis' route to a nuclear bomb, the 
gold standard, as you mentioned.
    I did this because peace and nonproliferation should always 
be the top priority for the United States, but also because 
recent events, like the horrific murder of Jamal Khashoggi, 
have made it all the more clear why we must insist on the 
highest nonproliferation standard for this deal. We cannot 
allow a civilian nuclear deal with Saudi Arabia to create a 
pathway to a nuclear bomb, period.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Sherman. Thank you. The gentleman from Michigan would 
be happy to know that we have a provision that I wrote in the 
NDAA that goes quite far in the direction you are suggesting 
and I look forward to----
    Mr. Levin. Yes. I hope it survives.
    Mr. Sherman. I look forward to your help in getting--it to 
survive.
    Mr. Levin. You got it.
    Mr. Sherman. I will now recognize the gentleman from 
Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. I am going to 
followup on the point you made in a minute, but first I want--
unfortunately, I was at another meeting when our colleague from 
Pennsylvania asserted that there were violations that had been 
ignored pursuant to the JCPOA, the Iran nuclear agreement.
    And let the record show that even the United States did not 
have to certify until it stopped doing so in general, but the 
IAE certified and I was there the day they issued their last 
certification this late spring this year that in all metric, 
all measurements of expectations set out in the agreement, Iran 
was not compliant with respect to the level of enrichment, the 
storage of enriched of uranium, centrifuges, inspections at a 
lot of facilities, that the deconstructing of the plutonium 
production reactor core and others.
    We are all entitled to our own opinion. We are not entitled 
to our own facts. And frankly, by distorting facts or ignoring 
facts, in my view, to justify walking away from an agreement 
many did not like to begin with, we have now almost certainly 
set in motion the very thing we wanted to avoid, a nuclear 
Iran. And we looked success in the face and decided to despise 
it and I just think that is a destructive policy and I think 
the time has come for even those who were critics to admit it 
was working and that there is every urgency to either 
reconstitute it or try to reengage. But I do not know how 
serious human beings can reengage with the very power that 
convenes people in the first place and wrote the treaty and 
then renounced its own treaty.
    The damage done in our credibility is not just on paper. It 
is real. It is palpable and it is going to damage the ability 
of the United States on many fronts to play interlocutor, to 
play arbitrator, to play chairman in bringing together parties 
with disparate views on important issues such as this one.
    And how we re-engage Iran having shown we are an unreliable 
partner on a plan that was agreed to not only by our allies in 
Europe, but by Iran with whom we had not talked essentially 
since the revolution and China and Russia. We brought them all 
together a single, single development. And we blew it all 
apart. And from my point of view we blew it all apart because 
the current President of the United States did not like the 
previous President of the United States having anything by way 
of concrete achievement to his name. That is a petulant, 
peevish reason to damage the national security interest of the 
United States and to frankly, reinject the nuclear issue in a 
very volatile region of the world. Just a point of view. I am 
sorry that Mr. Perry is not here to hear it.
    Following up on Mr. Levin's point about gold standard in 
Saudi Arabia, Mr. Assistant Secretary, are we not a little bit 
concerned that if we, in fact, accept something less than that 
that it then could unintentionally lead to proliferation 
because lots of other countries would be able to look at that 
and say we want to a lesser standard, too?
    Mr. Ford. Actually, historically, sir, very few countries, 
in fact, only two have ever agreed to the gold standard and 
they had their very peculiar circumstances. In one case, there 
was already domestic legislation prohibiting enrichment and 
reprocessing in the United Arab Emirates, so it was essentially 
not much of an ask at all for them to be, to sign off in a 123 
to those rules.
    The other case being Taiwan, and as a result----
    Mr. Connolly. I am sorry, I am running out of time. My 
fault, but I am not understanding your point. Mr. Levin said we 
should not settle for anything less than the gold standard with 
respect to Saudi Arabia. Are you giving a rationale for why we 
will accept something less than a gold standard in Saudi 
Arabia?
    Mr. Ford. No, sir. I am trying to explain why it is hard. 
And another reason why it is challenging is that I wish that 
all the other nuclear suppliers around the world----
    Mr. Connolly. Let us stipulate that--Mr. Ford, I am running 
out of time. Let us stipulate it is hard. But what is the goal? 
What is the policy? Do we want the gold standard for Saudi 
Arabia especially in light of their recent behavior?
    Mr. Khashoggi was my constituent and I still mourn what 
happened and I think we ought to be tougher, not weaker with 
respect to Saudi Arabia across the board, but irrespective of 
that, we do not want a nuclear proliferation any more than we 
have to have it in the region. Why would we not insist on the 
gold standard in Saudi Arabia other than it is hard?
    Mr. Ford. Forgive me, sir. I did not know that he was your 
constituent and let me say it was a horrific and a horrocious 
and tragic situation and one can only mourn for his loss. We 
have pressed the Saudi Government strongly for full 
accountability for all those involved and I dearly hope that 
that happens.
    With respect to the gold standard, the point I was trying 
to make, sir, is that unfortunately, this is no longer an era 
in which the United States' market share in the nuclear 
business allows us the opportunity to simply dictate terms. The 
challenge in this is finding the spot that allows us to get the 
strongest possible nonproliferation assurances without asking 
for the unachievable perfect in such a way that it drives 
would-be counterparties to deal with other suppliers who 
frankly do not care, in some cases much at all about these 
kinds of assurances. And where one can go running to another 
supplier who does not ask those complicated and 
nonproliferation strings, we have a very difficult negotiating 
challenge.
    We absolutely try to get the best that we can possibly can 
in every single circumstance. It is hard in advance to say what 
that will be in any given case, but I can assure you that we 
are trying as hard as we possibly can. And Secretary Perry has 
also made very clear our seriousness in trying to push this as 
far as it is possible to push it.
    Mr. Connolly. We look forward to pursuing it with you. 
Thank you. And thank you, Mr. Chairman.
    Mr. Sherman. Thank you. We will now do the second round. I 
will recognize myself for 5 minutes and I have got a lot of 
comments.
    The first is that MbS, the Crown Prince says we want the 
same deal as Iran. And I think that in a way they should get it 
and that is this. If you start a nuclear program and you do not 
have a 123 Agreement with the United States, you should get the 
kinds of sanctions that we impose on countries we expect to 
proliferate. If Saudi Arabia wants to be an enemy of the United 
States on a par with Tehran, they can go down the Tehran road. 
And the only way--you are right. We are not the--we do not have 
the market power in the nuclear field to cause countries not to 
proliferate which is why you have to deal with the other parts 
of the U.S. Government and use the economic power of the United 
States and the fact that other countries are dependent upon us 
for their national security because otherwise, you have got 
nothing, I mean, to negotiate with. The countries always want 
to keep their options open.
    As to the Iran deal, I think Iran is now asking that 
whatever new deal is put together be ratified by Congress. 
There has been an opinion on our side that anything signed by 
the President, who is a Democrat, is morally binding and 
legally binding on the American people whether Congress 
ratifies it or passes legislation or not. Suffice it to say no 
one in my party believes that if this President signs a deal 
say a deal with Botswana that both countries will endeavor to 
burn as much coal as possible, that that would be morally or 
legally binding upon the United States without congressional 
action. So it was not a treaty. That being said, it is a little 
extreme to tell Iran that they should have remained in 
compliance with it after we backed out. They negotiated it to 
get certain benefits from the United States. We have taken 
those benefits away.
    Saudi Arabia is on a peninsula with a huge amount of 
natural gas. It is very expensive to liquefy and move natural 
gas when you do not have a pipeline. They do not have a 
pipeline. So the economic way to generate electricity is to 
burn natural gas. They have chosen not to. Why do they have a 
nuclear program? To give themselves a position to build a 
nuclear weapon. I hope that we will keep that in mind as they 
say first they need a nuclear program and second, they need to 
avoid the additional protocol.
    Let us see. South Korea has long expressed an interest in 
pyroprocessing which they claim is less of a proliferation risk 
than reprocessing. Last time the State Department ruled on the 
issue in 2011, your Department at that point said 
pyroprocessing is reprocessing period. Do you stand by that?
    Mr. Ford. Actually, I am a little bit out of date on those 
negotiations and the on-going engagement with them. I believe 
that there has been a sort of compromise modus operandi worked 
out in this long-standing point of difference between the two 
governments, but I am afraid I am not as familiar with that as 
I should be.
    If I might, sir, on the Iran----
    Mr. Sherman. So are we trying to discourage South Korea 
from pyroprocessing or have we changed our position?
    Mr. Ford. Our policy continues to be to discourage the 
spread of enrichment and reprocessing technology in general, 
including in South Korea.
    Mr. Sherman. Let me move on. What is the Trump 
Administration doing to prevent France from selling a very 
large processing plant to China that would allow Beijing to 
produce enough material for tens of thousands of nuclear 
weapons?
    Mr. Ford. We work very closely with all other nuclear 
suppliers to encourage what we call standards of responsible 
nuclear supply. That includes a whole bunch of things that not 
everyone does. It includes promoting the additional protocol as 
a standard of supply. It encourages--it includes demarching 
people for what we believe to be unproductive and potentially 
strategically destabilizing moves. I cannot speak about 
particular demarches, of course, but our policy----
    Mr. Sherman. I will just mention a few issues with the 
questions for the record.
    We have got Japan's massive reprocessing plant that has 
been delayed for years. We hope that the administration is 
trying to persuade Japan not to operate that plant.
    We have got the Turkish President talking about moving 
toward a nuclear weapon and we hope that your Department is 
seeking to ensure that Turkey lives up to its NPT commitments.
    And I will want an answer for the record, explicitly, on 
why the Administration has taken action to prevent Iran from 
shipping enriched uranium out of the country. I also oppose the 
JCPOA, but I think that getting enriched uranium out of Iran is 
a good thing and with that, I will recognize the ranking 
member.
    Mr. Ford. If I might----
    Mr. Sherman. If you want to indulge me for the time, I will 
get an answer, sure.
    Mr. Ford. Forgive me, I cut you off. I was going to say 
with the issue of shipping uranium out of Iran, the fuel swap 
that was set up under the JCPOA, for which we dropped our 
previous waiver permission, was designed to give the Iranians 
an opportunity to continue to enrich. It allowed them to 
enrich, to keep enriching, and not exceed the cap.
    Mr. Sherman. Yes. But now they have broken through that 
cap. The cap was imposed by an agreement that we renounced.
    Mr. Ford. But they did not need that fuel swap to start 
with. They are perfectly capable of down blending. None of this 
was actually necessary for them. It was a political excuse to 
give them an opportunity to justify and legitimize the 
continued operation of enrichment and centrifuge activity that 
we did not think it was appropriate to encourage.
    Mr. Sherman. Well, the only thing worse than Iran enriching 
is enriching and holding on to the enriched uranium. If they 
enrich and ship out, that is not as good as not enriching at 
all, but it is better than enriching and retaining.
    Mr. Ford. But all of these problems, sir, are ones we would 
have faced either way under the JCPOA itself. We might have 
faced them a few more years down the line, but one of the 
fundamental problems with the deal and one of the principal 
reasons that we felt it necessary to pull out of it is that 
even under the JCPOA, we would have faced all these very same 
problems at some point or another anyway. In fact, it would 
have been worse then because at that time Iran would have been 
given, in effect, permission by the international community to 
buildup a stockpile of any amount of enriched uranium and----
    Mr. Sherman. We know the long-term flaws of the JCPOA. We 
pulled out of the JCPOA so the world is not going to think that 
Iran pulled out when they violated because we already pulled 
out. The less enriched uranium the Iranians have and the lower 
enrichment level of that uranium at any one time the better. 
And the idea that well, we will prevent them enriching by not 
letting them ship out which means they will stop enriching 
because they do not want to violate the cap does not work if 
the world does not enforce the cap and we are not in a position 
to enforce--to tell the world to enforce the cap when we pulled 
out of the deal.
    Mr. Ford. You and I would both agree that the right answer 
is for Iran to have no ability to produce enriched uranium at 
all.
    Mr. Sherman. Obviously, in a perfect world----
    Mr. Ford. But the JCPOA, in effect, deprived us of a 
pathway toward that right solution by legitimizing a massive 
nuclear buildup of a capacity in a few years' time. That is 
what we were determining from that, sir.
    Mr. Ford. We could go on for a long time. The fact is that 
trying to enforce part of the deal--the deal against Iran while 
pulling out of it and then finding a crafty way to put--anyway, 
we have gone on long enough.
    The gentleman is recognized. I may sneak out because I have 
got a former foreign minister of Indonesia, but I will sneak 
back.
    Mr. Yoho [presiding]. Thank you, Mr. Chairman. You know, I 
sit here on Foreign Affairs for the last 7 years and I hear 
this over and over again, you know, the JCPOA, John Kerry is 
sitting there and no deal is better than a bad deal. And there 
is a deal, but it is not signed. I mean you have bought a car, 
I bought a car. I bought a house, you bought a house. Nothing 
is binding until it is signed.
    And so you see the confusion all this causes and the angst 
and one side against the other side. It was a bad vehicle that 
we should do better as Americans, as the U.S. Government.
    In my opening statement I talked about since the cold war, 
the United States has stood as a leader in deterring and 
responding to nuclear threats around the world through 
cooperation with the four other recognized nuclear powers, 
Russia, the U.K., France, and China. Now we have the other 
ones, but I think we all need to sit at the table and have an 
adult conversation. Where do we want to go with these things 
that we wish we could un-invent, but we cannot? And what about 
the others, the CWCs and the biological weapons, and come to an 
agreement and bring all parties together and just say let us 
not go down this road. You know, let us work on diplomacy.
    Is anybody talking about that? I know and then you have the 
U.N. out there which to me is a very useless vehicle because 
there is no enforcement mechanism and I look at the Security 
Council, you know, the 12 members that voted unanimously to put 
sanctioned on North Korea and two of them are Russia and China 
who never really enforced the sanctions. So it is inept at what 
it can do because it is limited by authoritative power or you 
know, enforcement I guess is what it is.
    So there has got to be a better vehicle. And I think of the 
INF Treaty that we backed out of and it was because Russia was 
in there and our intelligence said they were creating new 
missiles, that they were incompliant, and then you have China 
who is not a signatory of that and they are building up an 
arsenal and it is just to me it is lunacy looking from here out 
there. And I am sure as they look at us, they are saying, well, 
I cannot believe they are this ignorant.
    What would you recommend we do as world leaders with other 
nations to come together and have these discussions? And I 
would like to hear your thoughts on a better way to do this.
    Mr. Ford. Thank you for the opportunity to talk about this, 
sir. This is actually something about which we feel very 
strongly and that we have been trying, in connection with which 
we have been trying to build new approaches. It does appear to 
us that the luxury that we got used to after the cold war of 
being able to see global arsenals decline precipitously has 
resulted in the relaxing of tensions that was associated with 
the ending of the cold war. That period, unfortunately, is not 
the period in which we now live.
    Mr. Yoho. Right.
    Mr. Ford. The security environment now is more challenging 
than it was at that time and the traditional approaches that we 
became accustomed to during that post cold war interlude are 
ones that are, frankly, running out of steam to some degree and 
are not able to produce the kind of results that we have come 
to expect of them.
    In response to that, we are trying to explore efforts 
diplomatically to bring countries together to have a more 
creative and thoughtful dialog on how to unstick this process. 
I think there is a lot of wisdom that is encoded in the NPT 
itself and the preamble of that treaty actually refers to the 
importance of easing tensions and strengthening trust between 
States in order to facilitate disarmament. And I think in that 
one sentence you have an important kernel of wisdom here. The 
way you get to a world that ultimately does not have nuclear 
weapons is not to go after the tools in a world that is 
challenged in the security way that it is, but to go about 
trying to alleviate the underlying tensions that give countries 
incentives or perceived incentives to acquire weapons, to 
retain them, to not relinquish them. If we can figure out ways 
to alleviate tensions in the broader community, perhaps in 
islands of relaxation that can spread outward or whatever else 
it may be, that is the way that you are going to at least 
potentially find a way forward. That is why the Ban Treaty is 
absolutely the wrong way to do this. It goes about it backward 
by pretending that you are going to address this by the tools 
first as if the security circumstances will follow.
    But what we are trying to do with what is called the 
Creating an Environment for Nuclear Disarmament initiative or 
CEND, is to bring countries together to have the kind of free 
flowing engaged, not for attribution, almost brainstorming if 
you will, to try to think through how it is that we can 
approach these challenges differently. What does the world need 
and how would you go about the challenge of trying to alleviate 
tension as opposed to simply imagining that you can wave a wand 
and have people feel relaxed enough about a challenging 
security environment that they would be willing to go to the 
next step and relinquish a certain additional number of 
warheads.
    If there is a way forward, it has to run somehow through 
what the NPT tells us it needs to and that is to say that same 
relaxation of tensions and strengthening of trust. There is no 
guarantee this will work, but it is a kind of engagement and a 
focus of engagement that has not been tried before and we were 
very pleased to host the first plenary of a--I think we had as 
many as 30 or 40 countries come together in Washington in early 
July.
    Mr. Yoho. Of this year?
    Mr. Ford. Yes, sir.
    Mr. Yoho. OK.
    Mr. Ford. And we are planning another series of follow on 
line of effort discussion working groups to follow from that 
beginning in the very near future. There is no guarantee this 
produces results, but I think it is one of the few sort of 
novel approaches that has been tried for some time and we are 
very proud of at least giving it a try.
    Mr. Yoho. How many times have you met like that? Is this 
the first one?
    Mr. Ford. Once so far and perhaps in another couple of 
months I can tell you it is two.
    Mr. Yoho. OK, hang on just a second. All right, and China 
is a signatory to the NPT?
    Mr. Ford. They are. Yes, sir.
    Mr. Yoho. All right, they agreed on the sanctions with 
China--or with North Korea and they did not follow through as 
did Russia. I think of China with the Philippines in the South 
China Sea and the EC losing their argument in The Hague about 
the claims to the Nine-Dash Line and all that and they lost 
that argument, yet they ignored it. I remember Xi Jinping, in 
our Rose Garden with President Obama, saying we are not going 
to militarize those islands while they are doing it.
    So when you have people that are members of the NPT and 
they have signed on it and you start negotiating this and then 
here again China is not in the INF, so they are free to do 
whatever they want to, we need a collective, bringing these 
countries together and say all right, to deescalate where we 
are heading now and to prevent future conflicts, hopefully, 
maybe artificial intelligence will be the panacea of preventing 
future wars, but to be able to move forward you have got to 
have that trust and you have got to have a way of checking that 
and without trust you cannot move forward.
    I am not looking for a response from you. I wish you the 
best of luck. I am looking forward to seeing what happens after 
your next meeting and if you would reach out to us and let us 
know, because there should be a world standard that says from 
this point forward this is what we are going to do and all 
these countries that have, you know, chemical weapons, 
biological weapons, nuclear weapons agree this is where we are 
going to draw a line, no more. And I appreciate your time.
    Mr. Sherman [presiding]. I will make one final comment 
because I have a feeling you talked about the JCPOA.
    Mr. Yoho. No, I did not.
    Mr. Sherman. OK. I look forward to sufficient pressure 
being put on so that your Administration is able to negotiate a 
deal with Iran on proliferation issues that requires 
congressional approval and it is so good that he votes for it.
    Mr. Yoho. And you do, too.
    Mr. Sherman. And that I vote for it.
    Mr. Ford. And if I might, sir, we actually have said 
publicly and because it is true, that we are, in fact, open to 
a legally binding agreement. In many respects that is, 
arguably, one of the many flaws.
    Mr. Sherman. And to make it legally binding you need 
Congress and to get Congress, you are going to have to have a 
regime that does a credible job of keeping Iran from having 
nuclear weapons, not only during this Administration, but 
during future Administrations.
    With that and I do not want anybody to think that I do not 
have a hundred other things to say, but with that, we stand 
adjourned.
    Mr. Ford. Thank you, sir.
    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]

                              APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                
                                


             RESPONSES TO QUESTIONS SUBMITTE FOR THE RECORD
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
             


                                 <all>
</pre></body></html>
